August 21, 2020
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Mass. Lobstermen’s Ass’n, et al., v. Wilbur Ross, et al., No. 20-97

Dear Mr. Bickell:
Responses to the petition for certiorari filed by Petitioners Massachusetts
Lobstermen’s Association et al. in the above-captioned case are currently due on
August 31, 2020. Pursuant to Rule 30.4, Respondents Natural Resources Defense
Council, Inc., Conservation Law Foundation, Center for Biological Diversity, and R.
Zack Klyver (Defendants-Intervenors-Appellees below, and hereinafter “Intervenor
Respondents”) respectfully request a 30-day extension of time, to and including
September 30, 2020, within which to file an opposition to the petition.
This extension is requested to allow counsel for Intervenor Respondents
adequate time to review and respond to the petition and an amicus brief expected to
be filed in support of that petition. In particular, counsel for Intervenor
Respondents require additional time due to business disruptions from the ongoing
COVID-19 pandemic and related office and school closures. Counsel for Petitioners
do not oppose this requested extension. As of the time of filing, counsel for Federal
Respondents had not responded to inquiries regarding their position on the request.
Respectfully submitted,

Ian Fein
Counsel for Respondent Natural Resources
Defense Council, Inc.
cc: Jonathan Wood, Counsel for Petitioners
Jeffrey Wall, Acting Solicitor General, Counsel for Federal Respondents
Peter Shelley, Counsel for Conservation Law Foundation
Roger Fleming, Counsel for Center for Biological Diversity and R. Zack Klyver

